cc : XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
     XXXXXXXXXXXXXX
           Audit of NSF’s
Math and Science Partnership Program



      National Science Foundation
       Office of Inspector General


              May 14, 2004
              OIG 04-2-003
Table of Contents
          Introduction….…………………………………………..……….……1
                Background………………………………………..…………….1
                Expectations for MSP Project and Program Evaluation…….2

          Objective, Scope, and Methodology…………………………….…3

          Results of Audit………………...………………………..…………...6
              NSF Needs to Provide MSP Project Evaluation Guidance....7
                      Agency Response and OIG Comments……………..12

               NSF Needs to Make Evaluating the MSP Program
                     a Priority ………………………………………………14
                     Agency Response and OIG Comments…………….15

         Attachment
         A. Agency Response………………………...……...……..…………16
Introduction
          Background

          The National Science Foundation’s (NSF) Math and Science
          Partnership program (MSP) began as a presidential initiative in
          2001 and was authorized as a specific program by Congress in
          December 2002. The MSP program focuses on an overarching
          goal to improve elementary and secondary mathematics and
          science instruction for the purpose of strengthening preK-12 math
          and science education, improving student achievement, and
          reducing the achievement gaps among student populations. To
          accomplish this, the program awards funds to projects in which pre-
          kindergarten through 12th grade (preK-12) schools unite with
          institutions of higher education and other partners to undertake
          activities such as developing new curriculum and improving
          teachers’ skills.

          The development of partnerships among major stakeholders
          including school districts, higher education institutions, businesses,
          museums, and others, is an important feature of the projects
          funded by NSF’s MSP program. The partnerships are expected, in
          the short-term, to promote the program’s goals of providing all
          students access to challenging courses; increasing the quantity,
          quality, and diversity of preK-12 math and science teachers; and
          establishing results-oriented projects that implement evidence-
          based educational practices. Ultimately, the projects and the
          overall MSP program are expected to improve student achievement
          in math and science.

          Under the MSP program, NSF funds three different types of MSP
          projects: comprehensive; targeted; and research, evaluation, and
          technical assistance (RETA). Comprehensive projects focus on
          change in both higher education institutions and in school districts
          to improve student achievement in math and science across the
          preK-12 continuum. Targeted projects focus on improving student
          achievement in a narrow range of grades or have a disciplinary
          focus in math and/or science. RETA projects enhance the capacity
          of the MSP comprehensive and targeted awards to achieve their
          goals through projects focusing on the development of research,
          evaluation, and dissemination tools.

          Through early fiscal year (FY) 2004, NSF issued three solicitations
          for MSP comprehensive, targeted, and RETA project proposals. In
          two general rounds of funding, NSF made 61 MSP awards ranging


                                     1
from 1 to 5 years and totaling $460 million. During the first round of
MSP funding in late FY 2002, NSF awarded over $231 million for 7
comprehensive awards ($140 million), 16 targeted awards ($82
million), and 16 RETA awards ($9.5 million).1 In FY 2003, NSF
issued its second solicitation, and awarded over $228 million for 5
comprehensive ($143 million), 7 targeted ($61.3 million), and 10
RETA projects ($24 million). At the time of our audit in FY 2004,
NSF had issued a third solicitation and was in the process of
reviewing and awarding proposals.

Staff in NSF’s Education and Human Resources Directorate, Office
of the Assistant Director, manage the MSP program. The staff is
comprised of a Senior Program Coordinator, six program officers,
and a science education analyst.


Expectations for MSP Project and Program Evaluations

The MSP program represents a significant investment in improving
student achievement in math and science. In order to determine
whether the funded activities actually have an impact on student
achievement, the legislation authorizing NSF’s MSP program
outlines expectations regarding evaluations of individual projects,
as well as for the program as a whole. The legislation explicitly
directs applications for this program to include “a description of how
the partnership will assess its success.”2 In addition, the
authorizing legislation directs NSF to evaluate the program, and, at
a minimum, to use a common set of benchmarks and assessment
tools to identify best practices and materials developed and
demonstrated by the projects.

Concern about obtaining useful information from the project’s
evaluations is reflected in written comments by the House
Committee on Science. The Committee Views from the House
Science Committee on HR 1858, the precursor to the law
authorizing the MSP program, states, “The Committee wants to
ensure that the partnerships are closely evaluated…. The
Committee stresses the importance of in-depth, quantitative
assessments of the partnerships. The assessments should use
common metrics to facilitate useful comparisons, and should

1
  Two of these first year awards, one comprehensive and one targeted, were co-
funded by NSF and the U. S. Department of Education (ED). ED’s contribution of
$12.5 million towards these two awards is not included in the total dollars stated
here. In addition, NSF originally made 17 targeted awards, but one award was
phased out by mutual consent.
2
  Pub. L. No. 107-368 (2002).


                                2
    measure quantitative factors and not just attitudinal changes.
    Assessment should be an integral part of partnership activities.”3

    While later MSP solicitations explicitly require the projects to have
    quantitative measurements and an independent evaluator, the first
    solicitation contained less direct evaluation requirements.
    Nevertheless, the first solicitation did state, “Each partnership must
    carefully plan project evaluation to guide the annual assessment of
    progress and to measure the impact of the effort.” It further stated
    that the evaluation should provide evidence of the strengths and
    weaknesses of the effort being implemented, facilitating the
    partnership’s understanding of what works. Finally, it stated that
    the evaluation should be designed to respond to the need to
    analyze both the qualitative and quantitative data to determine the
    effectiveness of the partnership in contributing to positive
    institutional changes and student academic outcomes.


Objectives, Scope, and Methodology
    Because the ability to determine defined and measurable outcomes
    is so important to evaluating the ultimate success of the MSP
    program, the objectives of our audit were to:

        •   Determine whether the MSP comprehensive and targeted
            award recipients have effective evaluation processes that
            include measures of the impact of their intervention
            strategies on student achievement, and
        •   Determine whether NSF has a plan in place to evaluate the
            overall performance of the MSP program.

    To accomplish these objectives, we focused on comprehensive and
    targeted awards made in the first year, FY 2002. At the time of our
    audit, these projects had been active for approximately one year,
    and the projects should have submitted to NSF a variety of reports
    including their strategic, evaluation, and implementation plans, and
    their initial annual progress reports. From this initial group of 23
    MSP awards, we judgmentally selected a sample of 3 of the 7
    comprehensive awards, and 6 of the 16 targeted awards, based on
    a cross-section of the award dollar amounts. We excluded RETA
    awards from our audit because their purpose is to provide
    assistance to the targeted and comprehensive projects, as well as
    to research specific issues in support of the projects.

    3
     U.S. House of Representatives, Committee on Science, Committee Views on
    HR 4664, Mathematics and Science Education Partnerships, July 11, 2001.


                                 3
We conducted a variety of work to determine whether the MSP
comprehensive and targeted award recipients have effective
evaluation processes that include measuring the impact of the
intervention strategies and activities on student achievement. To
develop an understanding of what constitutes an effective
evaluation process, we reviewed evaluation literature and met with
professionals in the education evaluation community. Recognizing
that there are many approaches to evaluating education programs,
we sought to develop a list of basic elements that would be key to
an effective evaluation process. Relying on the advice of an
education evaluation consultant,4 our review of the initial MSP
program solicitation, and evaluation literature including The
Program Evaluation Standards5 and an NSF-funded document
entitled The 2002 User Friendly Handbook for Project Evaluation,6
we identified nine basic elements that constitute an effective
evaluation process.

To assess whether the nine projects selected in our sample had
effective evaluation processes, we reviewed the various plans and
reports submitted by the projects to NSF, including their proposals,
strategic, implementation and evaluation plans, and their annual
progress reports. We reviewed these plans and reports to
determine whether the various projects contained the nine effective
evaluation elements. Upon completing our analyses, we met with
the respective program officers and discussed our assessment of
each project in detail, to determine whether NSF was ensuring that,
where necessary, the projects were taking steps to address the
elements that were missing or needed improvements.

In order to determine whether NSF has a plan in place to evaluate
the overall performance of the MSP program, we interviewed NSF
program officials and reviewed relevant documents. We also
interviewed Westat, NSF’s contractor for the MSP monitoring
system, and obtained information about planned data requirements
and issues surrounding the implementation of this system. Finally,
we met with experts in the field of education evaluation, including
those from other federal agencies, to determine what are
reasonable expectations for the content and timing of a program
evaluation.


4
  RTI International.
5
  The American Evaluation Association, an international professional association
of evaluators, developed these standards.
6
  Frechtling, J. (2002). The 2002 User-Friendly Handbook for Project Evaluation.
Washington, DC: The National Science Foundation.


                               4
We conducted our audit work between July 2003 and February
2004, in accordance with generally accepted government auditing
standards.




                         5
Results of Audit
         Overall, we found that five of the nine FY 2002 Math and Science
         Partnership projects we reviewed had a process in place to
         effectively evaluate, define, and measure the impact of the
         intervention strategies, activities and outcomes on student
         achievement in math and science. While the remaining four
         projects did not address all the elements for an effective evaluation
         process, they could reasonably take the actions needed to
         implement such a process. In addition, NSF could better ensure
         that each MSP project has an effective evaluation process by
         providing award recipients with the elements of an evaluation
         framework that they could use to design their individual evaluations
         to measure the impact of their activities on student achievement.

         Additionally, although NSF is taking steps to plan for an overall
         evaluation of the MSP program, it has not yet established
         milestones and deadlines for developing and implementing this
         evaluation. While experts do not specify a point in time by which a
         program evaluation should be designed and implemented, ideally
         an evaluation would be in place at the time a program is
         implemented. By delaying the program evaluation, NSF may be
         missing opportunities to obtain constructive feedback, as well as to
         implement midcourse improvements and corrections in the MSP
         projects and the overall program. Thus, NSF should place a high
         priority on designing and implementing this overall evaluation
         process, and develop specific milestones and timelines for
         accomplishing these tasks.




                                    6
NSF Needs to Provide MSP Project Evaluation Guidance
        Evaluations throughout a project’s lifespan play an important role in
        understanding the activities and outcomes of that project and in
        assessing whether it is meeting expectations.7 The evaluation
        process itself, as well as the data collected through that process,
        provide information that the project can use to make ongoing
        corrections, when necessary. Evaluations also provide the
        framework within which a project measures and reports on the
        ultimate outcomes and impacts of its activities and intervention
        strategies.

        To assess whether the MSP projects had effective evaluation
        processes, we identified the following nine elements that provide a
        basic framework for conducting effective evaluations of the MSP
        program. Elements 1 through 3, and 7 through 9, are based upon
        The Program Evaluation Standards developed by the American
        Evaluation Association, which are recognized as standards for the
        evaluation profession. Elements 4 through 6 incorporate
        requirements contained in NSF’s FY 2002 MSP solicitation.

        1. Award recipient has a conceptual model for the project.
           Every project should start with a conceptual model to ensure
           that a common understanding about the project’s structure,
           connections, and expected outcomes exists. Also, the
           conceptual model assists in focusing the evaluation design on
           the most critical program elements. The conceptual model
           should include project inputs, activities, short-term outcomes
           and long-term outcomes.

        2. Project has evaluation questions and developed and
           defined, measurable outcomes. Evaluation questions build
           on the conceptual model and (1) identify key stakeholders and
           audiences, (2) formulate potential evaluation questions of
           interest to the stakeholders and audiences, (3) define outcomes
           in measurable terms, and (4) prioritize and refine questions.

        3. Project has identified an appropriate evaluation design that
           includes formative and summative evaluations of site-
           specific outcomes. An appropriate evaluation design includes
           a methodological approach and data collection instruments and
        7
          The same criteria apply to evaluating programs, defined as a collection of
        related projects. However, our purpose was to determine if individual MSP
        projects have effective evaluation processes in place. Performing an overall
        evaluation of the MSP program is addressed later in this report.


                                       7
    determines what will be studied and when. An evaluation
    design includes formative and summative evaluations.8

4. Project has documented the commitment level of each
   partner. Partnerships are an integral part of the MSP program,
   and the projects must document each partner’s level of
   commitment in order to know how their involvement impacted
   the success of the project.

5. Project will collect data from identified sources that
   measure the project activities and student achievement.
   Documenting project activities and measuring student
   achievement are pieces of information necessary in determining
   the outcomes of projects funded by NSF’s MSP program.

6. Project will collect data from identified sources that
   measure the project’s ability to increase and sustain its
   activities. Increasing and sustaining activities are a central
   point in NSF’s MSP program. Identifying the data sources
   ensures that appropriate data will be available to assess this.

7. Project has objective implementation measures. Before an
   evaluation of a project’s outcomes or impact can be done, the
   project must be operating as planned. Objective measures of
   the implementation provide a means for the project to complete
   an early check to ensure that essential elements are in place
   and operating. Measuring the implementation also provides the
   project with information on the variations of how the
   interventions are carried out and the effects of these differences
   on the outcomes.

8. Project has a plan for quantitative and qualitative analysis
   of the project data. Quantitative and qualitative information
   that are appropriately and systematically analyzed ensure that
   the evaluation questions are effectively answered.

9. Project will develop audience-specific reports. Various
   stakeholders in a project have varying information needs, and
   audience-specific reports ensure that the project provides
   appropriate information for all stakeholders.


8
  Formative evaluations assess the ongoing project activities and provide
information to monitor and improve the project. Summative evaluations assess
the project’s success in reaching its goals. For those projects with research
activities at more than one site (for example, multiple schools), site-specific data
should be collected.


                                 8
Effective Evaluation Process

Five of nine FY 2002 MSP projects we reviewed addressed the
nine elements for an effective evaluation process to measure the
outcomes of their intervention strategies and activities, and to
evaluate their impact on student achievement. Each of these
projects identified evaluation questions that determine what
measurement data will be collected. Also, each has an appropriate
evaluation design that corresponds to and will evaluate outcomes
that are specific to the project. For example, these projects
specified the instruments they plan to use to evaluate their projects,
as well as discussed designs, such as quasi-experimental designs,
that will be used to determine the effects on student achievement.

Similarly, all five projects provided information on how the projects
would measure the implementation of their project’s approach and
methodology during the course of the project. For example, all five
will collect data to measure the involvement of major stakeholders
in the partnership. One of these projects will measure the degree
to which teachers successfully implement standards-based and
inquiry-oriented science and math programs. Another project will
measure the implementation of education practices through
classroom observations conducted by project staff, teacher leaders,
and an external evaluator.

Conversely, the remaining four projects in the sample lacked
between three and nine of the nine elements for an effective
evaluation process. For example, all four projects had not
addressed the element for identifying appropriate evaluation
designs. One of these four projects had not developed an
evaluation plan for three of its five stated project goals, thereby
limiting how it can evaluate the entire project. Another project had
not provided a detailed evaluation plan to ensure that all of the
project activities were in place and operating, again missing the
opportunity to thoroughly evaluate the project. A third project did
not organize its evaluation design in relation to specific
interventions, benchmarks, and project outcomes, making it difficult
to track and evaluate its activities.

These four projects also did not provide information as to how they
would measure the implementation of their intervention strategies,
and, therefore, risk not being able to assess the effectiveness of
their strategies. For example, one project plans to recruit scientists
to be “on call” to assist teachers but has no measures to determine
how often teachers actually contacted the scientists or whether the
scientists successfully provided assistance. Another project plans


                           9
to count the number of participants in a credential intern program
for teachers. However, the project does not identify what steps it
will take to implement outreach and recruitment activities for this
program, and, therefore, will not be able to measure the
effectiveness of these activities in increasing the quantity of
teachers.

In addition, two of these four projects did not document their
partners’ commitment levels, as addressed in the MSP solicitation.
Furthermore, these same two projects did not provide information
as to how they will collect data related to student- and teacher-
activities. For example, one project includes a goal to increase
schools’ capacity to provide challenging curriculum for every
student, yet the project does not address how it will collect data to
determine if this goal is met. Without collecting the information that
is necessary to measure these types of activities, these projects will
not be able to assess their own success.

Without all of the elements of an effective, ongoing evaluation
process in place, NSF cannot ensure that the projects provide
useful information about both the results of the activities and
intervention strategies, and the effect or impact these activities
have on student achievement. This information is also necessary
for other stakeholders, including project participants, to learn from
the outcomes of the projects. Foremost, the information is needed
by educators in the math and science community, as they strive to
understand what methods and strategies are most likely to improve
student achievement and lessen achievement gaps.


Guidance on Evaluation Plans

NSF could better ensure the quality of the evaluation plans for all of
its projects by requiring evaluation plans as part of the program
solicitation and providing a framework of minimum evaluation
factors that projects should include in their plans. However, NSF
officials have stated that they prefer to leave the design up to the
individual projects, and then rely on the professional judgment and
past experience of its program officers to guide evaluation plans for
the projects funded under the first MSP solicitation. This has
resulted in inconsistent quality of the projects’ evaluation designs
and plans.

For example, in our discussions with the program officers regarding
essential missing evaluation elements of particular projects, we
received varied responses and opinions regarding approaches to
project evaluation. While one program officer outlined the same


                          10
key elements for an effective evaluation process that we identified,
another program officer stated that not all the elements we
identified were necessary, although he agreed that all projects
should have goals, objectives, benchmarks, and a series of
measures to evaluate ultimate outcomes. A third program officer
does not have any pre-established expectations for the evaluation
plans, but rather relies on past experience with projects and
evaluations to determine what should be included in an evaluation
plan. This program officer stated that researchers do not have to
provide detailed evaluation plans because the key elements are
intrinsically built into the evaluation, and therefore, will be
accomplished unless the project evaluators are totally
inexperienced.

While each project has different activities and methodologies, and
therefore different evaluation plans, it is nevertheless important that
NSF ensure that the evaluation plans are effective in assessing the
outcomes of each project. Accordingly, providing the projects with
an evaluation framework comprised of the nine elements we
identified would ensure that evaluation plans are held to a minimum
set of standards, and ultimately would ensure that information is
available to measure the outcomes and impacts of the activities
funded. Also, this framework of minimum standards would help
ensure that criteria are consistently applied across the various
projects, and avoid the situation we found where four of the nine
projects lacked an effective evaluation process. With quality
evaluation plans, meaningful project results can be disseminated to
improve educational practices as math and science educators
strive for ways to improve student achievement.

Since the original MSP program solicitation in FY 2002 was
developed, NSF has strengthened evaluation requirements for the
projects in successive solicitations by explicitly requiring projects to
have quantitative measurements and an independent evaluator.
During the course of our audit, some program officers advised us
that they have already begun to coordinate with project staff to
include the missing evaluation elements in the sampled projects’
evaluation plans. Such actions are an excellent start to ensuring
that all projects have effective evaluation plans. However, as
indicated by our review, NSF must ensure that all MSP projects
provide measurable and useful information about their intervention
strategies, activities, and outcomes.

Recommendation

We recommend that the Assistant Director, Education and Human
Resources Directorate:


                           11
1-1) Implement procedures to ensure that the nine basic evaluation
elements discussed in this report are required and documented in
all current and future MSP project evaluation plans. For all current
MSP projects, the NSF program officers should verify that the basic
evaluation elements are included in the projects’ evaluation plans,
and where needed, work with the projects to address elements that
are missing or need improvement, and for future MSP projects,
ensure that these elements are included in any future solicitations.

Agency Response and OIG Comments

NSF agrees that appropriate overall guidance for project evaluation
should be included in program solicitations, but does not believe
that a framework of required evaluation elements is necessary.
NSF notes that the MSP program is a large research and
development (R and D) effort, and its projects do not necessarily
involve mature work that lends itself to intervention-sensitive
evaluation – what NSF refers to as the context of justification. NSF
indicates that, as an R and D effort, the MSP program places a
premium on innovation, and, as such, faces the challenges of
evaluating projects that may lack maturity and possibly even the
tools needed to measure important project components. Further,
NSF believes our report overstates the shortcomings we identified
in four of the MSP projects. The full text of NSF’s response to our
recommendation is included as an Appendix to this report.

We recognize and acknowledge that many of the MSP projects are
innovative and may be difficult to measure and evaluate. We also
recognize that NSF has funded additional projects under MSP-
RETA to enable partnerships to better assess their work.
Nevertheless, we believe all of these projects are capable of some
level of measurement in all nine elements. As NSF and Westat,
NSF’s contractor, point out in the response to this report, while
designing evaluations of R and D projects in the early stages is
different from designing evaluations of more mature projects, “both
are expected to meet the requirements for high quality evaluation,
such as clearly stated questions; appropriate designs, sampling
strategies and data analysis procedures; clear specification of data
collection approaches, and use of reliable and valid
instrumentation.” These elements, applicable to both early R and D
and mature projects, are included in the nine basic evaluation
elements we identified, and four of the nine projects we reviewed
lacked at least two of these above elements. For example, one
project did not have clearly stated evaluation questions, nor did it
have an appropriate evaluation design, both noted as necessary
elements for a high quality evaluation of an R and D project in the


                          12
early stages. Additionally, the other five projects we reviewed were
also R and D efforts in the early stages, and were able to address
to some degree, all of the nine basic evaluation elements we
identified. Further, the authorizing legislation for the MSP program
included requirements for accountability through evaluation. NSF
recognized this need for accountability and required in its
solicitation that:

       …the evaluations should provide evidence of the strengths and
       weaknesses of the effort being implemented, facilitating the partnership's
       understanding of what works.

NSF also notes that one important component of the evaluation of
the MSP program is the collection of data on student achievement.
We agree, and found that the nine projects we reviewed had plans
to collect data on student achievement. We have revised our report
language to ensure that this point is clear. What is also important,
however, is what causes that achievement to go up or down, and
measuring the actual activities to accomplish improved student
achievement is as important as measuring the student achievement
itself.

The nine basic elements in our evaluation framework provide for
the linkage between the strategies and activities, and their ultimate
impact on student achievement. However, as discussed in the
report, we identified shortcomings in the collection of other data
related to student and teacher activities. For example, one project
planned to measure the number of students enrolled in a new
science curriculum, but had no plans to measure how many
students successfully completed the curriculum units or how well
the students did.

We reaffirm our recommendation.




                              13
NSF Needs to Make Evaluating the MSP Program a
Priority
        While evaluations play an important role at the project level,
        program-wide evaluations also provide critical opportunities to
        examine, at a global level, the usefulness of the activities and
        strategies employed by the individual projects that comprise a
        program. Experts do not specify a point in time by which evaluators
        must design and implement the program evaluation plan, and
        gather and analyze the data to effectively assess the outcomes of
        the program. However, some experts agree that, ideally, an
        evaluation plan would be implemented when a program is
        implemented, so as to capture baseline data, annual benchmark
        data, and identify and address issues affecting the program’s
        outcomes.

        The MSP legislation requires NSF to conduct this critical process.
        While NSF has taken some initial steps, it needs to document and
        formalize its plans. NSF has assigned responsibility for leading and
        managing this evaluation effort to its Division of Research,
        Evaluation and Communication (REC) within NSF’s Education and
        Human Resources Directorate. Further, NSF is developing a
        request for proposal to contract with an outside consultant to design
        and conduct formative and summative evaluations of the MSP
        program.9

        However, NSF has not yet formalized its plans for a program
        evaluation process, and has not established definitive timeframes
        and deadlines for implementing, conducting, and completing the
        process. More than two years have passed since NSF made the
        first MSP awards, and NSF is losing valuable opportunities to
        obtain constructive feedback on the individual 5-year projects and
        on the program as a whole, to identify and address programmatic
        issues, and to make needed mid-course corrections and
        improvements. Furthermore, delays in obtaining and analyzing
        data about the impact of the MSP program on student achievement
        may lead to delays in stating, with confidence, whether or not the
        program is achieving its goals. NSF is also missing opportunities to
        provide constructive input to successors of the MSP program.


        9
          NSF is also in the process of establishing an on-line monitoring system that will
        collect data from all of the individual projects funded by the MSP program. NSF
        plans to collect this data on an on-going basis, and make this data available to
        the experts conducting the program evaluation.


                                        14
Therefore, NSF must make planning for and formalizing the MSP
evaluation process a higher priority.


Recommendation

We recommend that the Assistant Director, Education and Human
Resources Directorate:

2-1) As soon as possible, develop and document a comprehensive
management plan for evaluating the MSP program. The plan
should specify milestones, target dates, and deliverables for
accomplishing the evaluation process.

Agency Response and OIG Comments

NSF states that planning for the overall MSP program evaluation
has progressed further than the audit report acknowledges. NSF
expects to issue a solicitation for the program evaluation by May
2004, and award the contract by October 2004. NSF also notes it
is developing the MSP Information Management System (MSP-
IMS) which will aggregate data currently being collected from the
MSP projects in annual progress reports, and will analyze common
data elements.

We agree that NSF is making progress in developing the
solicitation for the overall program evaluation, and in developing the
data reporting modules for the MSP-IMS. Nevertheless, we note
that the solicitation for the evaluation has not yet been issued, and
the MSP-IMS is still in the planning and review stages, with
implementation not expected until the end of this calendar year. As
such, in delaying the development of a comprehensive plan for
evaluating the MSP program, NSF is losing valuable opportunities
to obtain timely data to assess and address programmatic issues.

This recommendation requires the timely development and
documentation of NSF’s plan for evaluating the MSP program. We
reaffirm our recommendation.

In conclusion, both NSF and the OIG share the common goal of
ensuring successful and high quality evaluation of NSF’s Math and
Science Partnership Program at both the project and the program
levels. We recognize that research and development brings unique
challenges to evaluation and measurement components, and we
appreciate the Foundation’s continuing efforts in this area.




                          15
Attachment A




                     Response to

                Audit of NSF’s
     Math and Science Partnership Program




                National Science Foundation
  Directorate for Education and Human Resources (EHR)
      Math and Science Partnership (MSP) Program

                       May 3, 2004




                           Prepared by
          XXXXXXXX, XXXXXXXXXXXXXX, MSP/EHR,
               with assistance from the MSP staff


                            16
Overview

We have reviewed this Audit and agree that formal, high quality, credible evaluation
should be a high priority for NSF, the Directorate for Education and Human Resources
(EHR), and the Math and Science Partnership (MSP) program, at both the project and
program levels. The MSP program is a large research and development (R & D) effort
with multiple responsibilities, and its evaluation must respond to both a context of
discovery and a context of justification.1

Some aspects of MSP work implement strategies for which the field has a reasonable
knowledge base emanating from existing scholarship or prior experience (e.g., with
particular professional development strategies or particular classroom strategies). When
the intervention or work to be done can be largely determined in advance of actual
implementation, the work -- by its very nature – is more mature and, in most cases, lends
itself to adequate assessment with existing measurement tools. This type of work is
compatible with intervention-sensitive evaluation (context of justification). On the other
hand, R & D efforts place a premium on discovery: being innovative in nature, they lack
maturity and often lack even the tools needed to measure important components of their
work.

Westat’s Joy Frechtling, author of the NSF-funded publication The 2002 User-Friendly
Handbook for Project Evaluation, states2

   R and D efforts, by their nature, are focused on discovering or applying knowledge to
   create something new or different. R and D explores new ideas or new approaches
   and applications of the knowledge base in the service of solving problems and
   creating new knowledge. Frequently, in such projects, all details of the “what and
   how” are not defined in the early stages and must emerge as the work develops.
   Designing evaluations of such efforts is quite different than designing evaluations of
   more mature projects. While both are expected to meet the requirements for high
   quality evaluation, such as clearly stated questions; appropriate designs, sampling
   strategies and data analysis procedures; clear specification of data collection
   approaches, and use of reliable and valid instrumentation, there are some important
   differences. And it is important to distinguish between evaluation plans that are
   technically flawed and evaluation plans that are incomplete because of the nature of
   the R and D process itself.

Because the Audit of NSF’s Math and Science Partnership Program has its primary focus
on evaluation planning in the context of justification – with little attention to the equally
important but challenging context of discovery that is embedded through the MSP effort
-- we do not agree with the first recommendation in the Audit Report to “[i]mplement
procedures to ensure that the nine basic evaluation elements discussed in this report are
required and documented in all current and future project evaluation plans.” We do agree
that appropriate overall guidance for project evaluation should be included in program
solicitations. As the MSP program has itself gained experience and expanded its



                                             17
knowledge base, each successive solicitation has progressively and appropriately
strengthened the evaluation guidance communicated to the field in a way that
acknowledges both the context of justification and the context of discovery that
characterize the MSP program. The Audit Report acknowledges this progressive
strengthening and we appreciate that recognition.

With regard to the overall MSP program evaluation and the second recommendation in
the Audit Report, planning has progressed steadily and in more substantive ways than are
acknowledged in the Audit Report. We expect the solicitation for overall program
evaluation to be issued in May 2004, with a contract to be awarded by October 2004. In
the interim, data essential to documenting and evaluating program and project progress
are already being collected by MSP Partnership projects, with submission to NSF
through annual progress reports. In addition, an externally contracted MSP Information
System (MSP-IMS) provides for the aggregation of these data and the analyses of
common data elements. The yet-to-be-awarded program evaluation contract will then
further analyze these data and formulate findings and recommendations for the overall
MSP program.

Components of MSP Evaluation Package

Evaluation in MSP follows a comprehensive and multi-faceted approach that is sensitive
to the context of the program and its multiple responsibilities:

   (1) Project-level evaluation that includes common data to be reported and that is
       otherwise specific to the goals of each funded Partnership;

   (2) An externally contracted Information Management System (MSP-IMS) – already
       awarded under contract to Westat -- that provides support for the collection
       across all funded Partnerships of common quantitative and qualitative data,
       including student achievement data and teacher data, analyses of these common
       data, and reporting that will inform and measure the progress of the program as a
       whole and of its individual projects.

   (3) An overall program evaluation that will analyze the data collected, formulate
       findings and draw inferences from those analyses, add the finer granularity
       needed to inform understanding, and make program-level recommendations; and

   (4) The MSP-RETA (research, evaluation and technical assistance) component of the
       program that consists of projects funded to develop new tools, measurement
       instruments, and the human capacity to inform evaluation of work that is currently
       evolving – and yet to evolve – as individual Partnerships move progressively into
       the R & D cycle. The funded MSP-Net project is an electronic community of
       practice that facilitates the sharing of tools, products, and findings to inform in a
       real-time mode the work of the Partnerships and to enhance their evidence base.




                                            18
The Audit Report of the MSP program focuses almost exclusively on the first and third
prongs of this overall package. The second prong of the package, the Information
Management System (MSP-IMS), receives little attention. Yet, the MSP-IMS brings
consistency to the overall MSP data effort through its common core of quantitative and
qualitative data required of all Partnerships, including student and teacher data. As
such, it is an important component that mitigates some of the Audit Team’s concerns,
such as those about evaluation plans for two projects that “did not provide information as
to how it will collect student- and teacher-related data, information that is necessary to
measure outcomes such as increasing student achievement and increasing teacher quality,
quantity, and diversity. Unless corrected, these projects will not have collected or
analyzed information that is integral to assessing the overall success of the MSP
program” (p. 10, Audit Report).

The initial MSP-IMS modules for data reporting have already been shared with Principal
Investigators and are undergoing necessary review and approvals, including that required
by the Office of Management and Budget, with actual implementation to commence
before the end of the current calendar year. The important collection and evaluation of
student achievement data will be discussed in greater detail below.

Context for MSP Program Evaluation

The MSP program is a large research and development (R & D) effort with multiple
responsibilities. First, there is a responsibility for strong public accountability, especially
in support of No Child Left Behind (NCLB), for (a) improved student achievement in
mathematics and science, K-12, and (b) an improved K-12 teacher workforce in
mathematics and science. Second, the MSP program has a responsibility to build the
nation’s capacity for improving mathematics and science education, including the
knowledge base that contributes to effective educational practice at all levels of K-16
STEM education and the effective engagement of STEM disciplinary faculty in this
work.

Some aspects of MSP work -- especially those that implement strategies for which the
field has a reasonable knowledge base emanating from existing scholarship or prior
experience -- are compatible with intervention-sensitive evaluation (context of
justification). When the intervention or work to be done can be largely determined in
advance of actual implementation, the work -- by its very nature – is more mature and, in
most cases, lends itself to adequate assessment with existing measurement tools. R & D
efforts, however, lack such maturity and often lack even the tools needed to measure
important components of the work being done. This Audit Report heavily relies on a
paradigm of evaluation that is intervention-sensitive at both the project and program
levels, with relatively little acknowledgment of the important evaluation challenges that
confront any R & D program.

Frechtling [communication of February 27, 2004] describes some of the unique
challenges of evaluating an R & D effort:




                                              19
       •   It may not be possible to completely define the complete evaluation plan early on
           when parts of the R and D effort are not themselves clearly defined. In some cases, a
           project may have four high level goals, but until all four goals are defined in more
           operational terms, strategies for attaining them, and the evidence for success
           identified, neither a comprehensive formative or summative plan can be created. In
           such a case, it may be possible to develop a complete evaluation plan for only one or
           two of the components and defer development of the rest until the program has been
           more completely specified. This is not really a problem with the evaluation plan, it is
           an issue that the project must address.
       •   With R and D efforts, it is sometimes the case that what needs to be measured cannot
           readily be accommodated with the tools that are at hand. Measuring teacher content
           knowledge is, somewhat surprisingly, an outcome that falls into this category. While
           there are a number of tools that purport to measure change in content knowledge,
           most instruments do not do so adequately. Another example is measuring the
           development of a partnership. While many studies have examined the notion of
           partnerships, we are still struggling with both the definition of the construct and the
           best ways to assess it.

           In such cases, R and D is needed in the evaluation as well as in the program. One
           solution would be to defer the R and D on the program side until the measurement
           tool for evaluation is more firmly in place. In most cases this is neither possible nor
           preferable, and the two types of R and D have to go hand in hand. Again, this is not a
           problem with a specific evaluation plan, but rather the state of the art; the tools and
           methodologies we have are not always adequate.

This view of the distinction between new and mature efforts is supported by other
scholars, including Shadish3 :

       Brand new programs have not yet had time to work out program conceptualization and
       implementation problems. . . . In addition, less background information and fewer past
       evaluations are likely to exist for new programs, so more work will have to done ‘from
       scratch.’ Well-established programs may be more ready for outcome evaluation, and they
       may have a greater wealth of information already available on them.

Haertel and Means4 write that:

       With early-stage projects, it is important to know how the innovation plays out in real
       classrooms, and the evaluator needs to be alert to unintended interactions with features of
       the environment that program designers may not have taken into consideration. Providing
       useful feedback to program developers and developing understanding of project
       implementation in context—that is, how the elements of the innovation influence teacher
       and student behavior—will be paramount concerns at this stage. . . . Almost any
       approach produces good results in some settings with some kinds of supports. Before
       recommending particular approaches for broader implementation, we need a basis for
       understanding the range of contexts within which desired results are and are not likely to
       be forthcoming.

The MSP program, as well as the Partnership projects it has funded, has a strong
emphasis on R & D. The evaluation of the MSP program is itself an R & D effort. In
those domains where MSP program work can be characterized as more mature,


                                               20
evaluation processes are also more mature. In domains that are more vested in R & D,
the evaluation processes are evolving. In particular, there are critical challenges related
to the existence of the very tools and instruments needed for assessing project process.
The fourth prong of the MSP Evaluation Package, the MSP-RETA component, is
therefore essential to an understanding of the logic of MSP and its R & D nature.

Even in their developmental stages, the tools and methodologies funded under MSP-
RETA enable Partnerships to better assess the effects of their work and – absent other
valid and reliable mechanisms – may be the best or perhaps even the only tools available.
Projects funded by MSP-RETA include, for example, a Longitudinal Design to Measure
Effects of MSP Professional Development in Improving Quality of Instruction in
Mathematics and Science Education (Rolf Blank, Council of Chief State School
Officers); Design, Validation, and Dissemination of Measures of Content Knowledge for
Teaching Mathematics (Heather Hill, University of Michigan); Assessing Teacher
Learning about Science Learning (Patrick Smith, Horizon Research, Inc.); Alternative
Approaches to Evaluating STEM Education Partnerships: A Review of Evaluation
Methods and Application of an Interorganizational Model (Gordon Kingsley, Georgia
Tech Research Corporation); and Adding Value to the Mathematics and Science
Partnerships Evaluations (Norman Webb, University of Wisconsin – Madison). The
instruments, methodologies, and tools under development in MSP-RETA are piloted and
field-tested at MSP projects and other sites. The expected contribution of MSP-RETA to
the evaluation capacity of the MSP program is an important component in assessing the
viability of the overall management plan for MSP evaluation and in an overall
understanding of MSP program logic.

Data on Student Achievement

Because student achievement data are viewed as an especially important component of
the evaluation of the MSP, they deserve special attention in this response to the Audit
Report. Analysis of each of the 23 approved Strategic Plans for the FY 2002 cohort of
Partnerships provides documentation that all Partnership projects have approved plans for
collecting data on student achievement and a viable system for such data collection. Goal
III-1b of the FY 2003 GPRA Annual Performance Goals for Strategic Outcomes related
to People states:

NSF will significantly enhance the quality of K-12 mathematics and science education
available to all students in Math and Science Partnership schools.

Performance indicators:

     •   Evidence in the award portfolio of the infrastructure to support high quality
         programs addressing issues related to teacher workforce capacity, including
         preservice education and inservice professional development of math and
         science teachers as well as alternative routes into the profession (e.g., scientists
         and engineers becoming teachers).




                                             21
     •   Evidence within Partnership schools systems of the infrastructure needed to
         improve math and science education and to measure improvement, i.e., the
         adoption of appropriate assessments of student achievement, as well as the
         initiation of the collection of achievement data that can be disaggregated by
         ethnicity, socioeconomic status, gender, etc.

EHR, with assistance from Westat, compiled and assessed performance information
related to this goal and reached a preliminary conclusion in summer 2003 that this goal
was achieved for the FY 2002 cohort of Partnerships. In subsequent independent review
in early September 2003, IBM (International Business Machines Corporation) Business
Consulting Services then verified “the reliability of the processes NSF used to collect,
process, maintain and report data for the goal and the analyses of the MSP proposals and
strategic plans performed by NSF staff, external panels of reviewers, and Westsat.” IBM
also validated “that the Directorate of Education and Human Resources reached a
reasonable conclusion that NSF achieved Goal III-B based on the quality of the
performance information and analyses of the MSP program results to date.”

Additional Comments on the Audit Report

We do not agree that the nine basic evaluation elements discussed in the Audit Report
define an appropriate evaluation framework for an R & D effort, such as the MSP
program. Within the framework of these nine basic elements, however, we would also
suggest that the perceived shortcomings in the four MSP Partnership evaluation plans of
focus -- when compared with these nine elements – have perhaps been overstated in the
narrative of the Audit Report (p. 9). Supporting/additional information transmitted from
the NSF Office of the Inspector General on April 7, 2004, about these projects shows, for
example, that in one of the four projects, there is but a single element that is perceived by
the Audit Team as “missing.” When a project’s evaluation plan is perceived as having
part of a single element that is incomplete and its relative importance can be debated,
tagging that project as having a less-than-effective evaluation process is arguably not
very compelling. Comments/responses on the remaining three projects and other
arguments aside, however, perhaps the most important point to be made is that
elements in a project’s evaluation plan that are perceived by the Audit Team as
“missing” are not always indicative of a flaw in evaluation planning, but rather of
the evolving project design that emanates from its R & D nature.

Nonetheless, the Audit Report and the accompanying Additional Information do identify
some areas where project evaluation plans could be improved. The FY 2002 cohort of
Partnerships that were the focus of the Audit Report are relatively young – about eighteen
months old – and we will continue to work with them to strengthen their evaluation plans
as their project designs mature.

Summary

We agree in principle with the Audit Report of NSF’s Math and Science Partnership
Program that MSP and other NSF program solicitations should provide ever-increasing



                                             22
guidance about project evaluation, as our own knowledge base and that of the field
expand and deepen. We are committed to making MSP program evaluation an R & D
effort in itself. Each solicitation issued by the program has been successively stronger in
articulating expectations for project evaluation. Program Officers continue to work with
funded Partnerships, including the FY 2002 cohort that is the focus of this Audit Report,
to strengthen their project designs and their evaluation plans. In addition, steady and
substantive progress has been made on the overall external program evaluation,
consonant with the R & D nature of the program. The MSP program is committed to a
high quality evaluation effort. We appreciative the time and effort given by the Audit
Team to improving our work.

Endnotes
1
 Terms from Charles S. Reichardt, Professor, University of Denver, EHR Series on
Scientific Research Methods in Education, March 29, 2004.
2
    Joy Frechtling, Westat, private communication of February 27, 2004.
3
 Shadish, W. (1998-1999). Some Evaluation Questions. Practical Assessment, Research
and Evaluation, 6, 3.
4
 Haertel, G. D., & Means, B. (in press). Evaluating Educational Technology. New
York: Teachers College Press.




                                             23
